No. 19-587

 

IN THE

Supreme Court of the United States

JIMMIE EUGENE WHITE, II, PETITIONER,

Vv.

UNITED STATES OF AMERICA

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,949 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 24, 2020.

 

Colin Casey Hggan
Wilson-Epes Printing Co., Inc.
